2311 Douglas Street
Omaha, Nebraska 68102-1214

C@OQCKLE

Legal Briefs

Est. 1923
1-800-225-6964
(402) 342-2831
Fax: (402) 342-4850 No.
CHARLES DANIEL MAYE,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.
AFFIDAVIT OF SERVICE

E-Mail Address:
contact@cocklelegalbriefs.com

Web Site
www.cocklelegalbriefs.com

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 24th day of July, 2019, send out
from Omaha, NE 1 package(s) containing 3 copies of the PETITION FOR WRIT OF CERTIORARI in the above entitled
case. All parties required to be served have been served by third-party commercial carrier for delivery within 3 calendar

days. Packages were plainly addressed to the following:

SEE ATTACHED

To be filed for:
KENT & MCFARLAND,
Attorneys at Law
WILLIAM MALLORY KENT
24 North Market Street,
Suite 300
Jacksonville, Florida 32202
(904) 398-8000 Telephone
(904) 348-3124 Fax
kent@williamkent.com Email
Counsel for Petitioner Maye

Subscribed and sworn to before me this 24th day of July, 2019.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

Sd 6 bolle Qndioo-h. Chale

My Commission Expires Nov 24, 2020

 

 

Notary Public

38393
Noel J. Francisco

Solicitor General of the United States
U.S. Department of Justice

Room 5616

950 Pennsylvania Avenue, N.W.
Washington, DC 20530-0001

(202) 514-2217
supremectbriefs@usdoj.gov
